TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Processes Are Needed to More Effectively
                    Address Potentially Erroneous Excess
                      Social Security Tax Credit Claims



                                      September 3, 2014

                             Reference Number: 2014-40-058




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Redaction Legend:
1 = Tax Return/Return Information
2 = Risk Circumvention of Agency Regulation or Statute


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


PROCESSES ARE NEEDED TO MORE                          (72 percent) returns had potentially erroneous
EFFECTIVELY ADDRESS POTENTIALLY                       claims totaling $177,854.
ERRONEOUS EXCESS SOCIAL                               Neither the information reported on or included
SECURITY TAX CREDIT CLAIMS                            with these 231 tax returns nor our research of
                                                      wage and withholding information reported by
Highlights                                            employers supported the amount of Excess
                                                      Social Security Tax Credit claimed by these
Final Report issued on                                individuals.
September 3, 2014                                     Of the 231 tax returns with questionable Excess
                                                      Social Security Tax Credit claims, 40 could have
Highlights of Reference Number: 2014-40-058           been identified as questionable at the time the
to the Internal Revenue Service Commissioner          tax returns were processed. The remaining
for the Wage and Investment Division.                 191 (83 percent) of the 231 tax returns involved
                                                      discrepancies between the credit claimed by the
IMPACT ON TAXPAYERS                                   taxpayer and the amount the employers
The Federal Insurance Contributions Act (FICA)        reported on Forms W-2.
tax is a U.S. Federal payroll tax imposed to fund     The IRS has established processes to identify
Social Security and Medicare. The Social              these discrepancies. However, the IRS only
Security tax portion of the FICA tax is computed      reviews a small portion of the questionable
as a percentage of wages earned. The                  claims it identifies. The IRS generally has no
employee’s portion of the Social Security tax is      other processes or procedures to address these
withheld from the employee’s wages by most            questionable Excess Social Security Tax Credit
employers and paid to the IRS on the                  claims. TIGTA estimates that the IRS allowed
employee’s behalf. Individuals with more than         more than $12.9 million in erroneous credits in
one employer whose Social Security tax                Tax Year 2011 ($64 million forecasted over
withholding exceeds the limit for a given tax year    five years).
may be entitled to a credit (hereinafter referred
to as the Excess Social Security Tax Credit or        WHAT TIGTA RECOMMENDED
the credit) on their tax returns.
                                                      TIGTA recommended that the Commissioner,
WHY TIGTA DID THE AUDIT                               Wage and Investment Division, ensure that
                                                      employees follow established procedures when
Individuals can claim the Excess Social Security      verifying claims and develop a strategy that
Tax Credit as a refundable credit on Form 1040,       adequately addresses tax returns identified with
U.S. Individual Income Tax Return. In Tax             a discrepancy between the Social Security tax
Year 2011, more than 1.3 million tax returns          withholding reported by taxpayers and reported
included Excess Social Security Tax Credit            by employers.
claims for more than $1.6 billion. TIGTA
initiated this audit to determine the effectiveness   The IRS agreed with three of the four
of the IRS’s processes to ensure that taxpayers       recommendations and has updated processing
are accurately claiming excess Social Security        procedures and plans to ensure that employees
tax withholding credits.                              are properly trained. While the IRS plans to
                                                      redesign filters used to identify erroneous
WHAT TIGTA FOUND                                      credits, it does not plan to revise its strategy to
TIGTA reviewed a statistically valid sample of        address Social Security tax withholding
322 of 87,319 tax returns for which the total         discrepancies to include the use of soft notices.
amount of Social Security tax withholding
employers reported to the IRS on Forms W-2,
Wage and Tax Statement, did not support the
credit amount claimed by the taxpayers on their
tax returns. The review found that 231
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 3, 2014


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes Are Needed to More Effectively
                             Address Potentially Erroneous Excess Social Security Tax Credit
                             Claims (Audit # 201240017)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s processes to ensure that taxpayers are accurately claiming excess
 Social Security tax withholding credits. This audit is included in our Fiscal Year 2014
 Annual Audit Plan and addresses the major management challenge of Fraudulent Claims
 and Improper Payments.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. If you have any questions, please contact me or Russell Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                            Processes Are Needed to More Effectively Address
                      Potentially Erroneous Excess Social Security Tax Credit Claims




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Processes Are Needed to More Effectively Address
          Potentially Erroneous Excess Social Security Tax
          Credit Claims ................................................................................................ Page 4
                    Recommendation 1:.......................................................... Page 7

                    Recommendations 2 through 4:........................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
                    Processes Are Needed to More Effectively Address
              Potentially Erroneous Excess Social Security Tax Credit Claims




                               Abbreviations

e-file(d), e-filing     Electronically file(d), electronic filing
FICA                    Federal Insurance Contributions Act
IRS                     Internal Revenue Service
TIGTA                   Treasury Inspector General for Tax Administration
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims




                                      Background

The Federal Insurance Contributions Act (FICA)1 tax is a U.S. Federal payroll tax imposed on
both employees and employers to fund Social Security and Medicare. The Social Security tax
portion of the FICA tax is computed as a percentage of wages earned. The Social Security tax is
withheld from employees’ wages by most employers and paid to the Internal Revenue Service
(IRS) on employees’ behalf. The Calendar Year 2013 tax rate for the Social Security tax was
6.2 percent paid by the employer and 6.2 percent withheld from the employee, for a total of
12.4 percent. Employers report total Social Security tax withheld to the employee and the IRS in
box 4 on Form W-2, Wage and Tax Statement. Figure 1 shows the Form W-2 for Calendar
Year 2013.
                             Figure 1: Calendar Year 2013 Form W-2




     Source: IRS.gov.

Employers can only withhold Social Security tax from an employee until a specific wage amount
is reached. The maximum taxable wage amount is set by the U.S. Social Security
Administration and can vary from year to year. For example, the maximum wage amount

1
    26 U.S.C §§ 3101-3128.
                                                                                         Page 1
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims



subject to the Social Security tax for Calendar Year 2013 was $113,700, and the maximum
Social Security tax that could be withheld was $7,049.40 ($113,700 multiplied by 6.2 percent).
Individuals are entitled to repayment of Social Security tax withholding that exceeds the
maximum withholding amount for a specific year. The Code of Federal Regulations states that
any individuals who have had more than the correct amount of Social Security tax withheld by
one employer must be repaid by that employer.2 However, if an individual has more than one
employer and the individual’s combined Social Security tax withholding from all employers
exceeds the maximum annual withholding amount, the individual can claim the excess amount of
Social Security tax withheld as a refundable credit (hereinafter referred to as the Excess Social
Security Tax Credit or the credit)3 on Form 1040, U.S. Individual Income Tax Return. For
example:
        Taxpayer A has one employer who withheld $8,000 in Social Security tax from his or her
        wages for Calendar Year 2013. To obtain the excess withholding, Taxpayer A is required
        to contact his or her employer to recover the $950.60 ($8,000 less the $7,049.40 limit for
        Calendar Year 2013) in excess Social Security tax that was withheld from his or her
        wages. Whereas, Taxpayer B has one full-time employer and one part-time employer.
        Combined, these employers withheld $8,000 in Social Security tax from his or her wages
        for Calendar Year 2013. To obtain the excess withholding, Taxpayer B can claim a
        refundable credit on his or her Tax Year[4] 2013 Form 1040 for the $950.60 in excess
        Social Security tax that was withheld from his or her wages.
The Excess Social Security Tax Credit is claimed on Form 1040, line 69 – Excess social security
and tier 1 RRTA5 tax withheld. For Tax Year 2011, the IRS received more than 1.3 million tax
returns that included claims for more than $1.6 billion in excess Social Security tax withholding.
Figure 2 shows where individuals claim the Social Security tax credit on Form 1040.




2
  26 C.F.R. 601.401(c)(2)(i).
3
  A refundable credit is not limited to the amount of an individual’s tax liability and can result in a Federal tax
refund that is larger than the amount of a person’s Federal income tax withholding for that year.
4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
5
  Railroad Retirement Tax Act (RRTA) taxes fund railroad worker retirement benefits. Railroad employers are
subject to a separate and distinct system of employment taxes from the Federal Insurance Contributions Act and the
Federal Unemployment Tax Act (26 U.S.C. §§ 3301–3311) systems covering most other employers. The IRS is
responsible for collecting these taxes. These taxes are imposed by chapter 22 of the Internal Revenue Code.
                                                                                                            Page 2
                       Processes Are Needed to More Effectively Address
                 Potentially Erroneous Excess Social Security Tax Credit Claims



                         Figure 2: Payments Section of Form 1040




Source: Form 1040 for Tax Year 2012.

This review was performed within the Wage and Investment Division’s Reporting Compliance
function in Atlanta, Georgia, and the Submission Processing function in Cincinnati, Ohio, during
the period of August 2012 through January 2014. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims




                                       Results of Review

Processes Are Needed to More Effectively Address Potentially
Erroneous Excess Social Security Tax Credit Claims
Analysis of the 1.3 million Tax Year 2011 tax returns with an Excess Social Security Tax Credit
claim identified 87,319 tax returns with questionable claims totaling more than $101 million.6
For each of these tax returns, the total amount of Social Security tax withholding reported to the
IRS by employers on Forms W-2 did not support the amount claimed as a credit by the taxpayers
on their tax returns. Our review of a statistically valid sample of 3227 of the 87,319 tax returns
found that 231 returns (72 percent) had potentially
erroneous claims for Excess Social Security Tax
                                                             The IRS may have paid more than
Credits totaling $177,854.                                      $12.9 million in potentially
Neither the information reported on or included with      erroneous Excess Social Security
                                                             Tax Credits in Tax Year 2011.
these 231 tax returns nor our research of wage and
withholding information reported by employers
supported the amount of Excess Social Security Tax
Credit claimed by these individuals. Based on the results of our sample, we estimate that the IRS
may have paid more than $12.9 million8 in potentially erroneous Excess Social Security Tax
Credits on 25,728 Tax Year 2011 returns9 as a result of weaknesses in its verification processes.
Over five years, we forecast that the IRS could pay more than $64 million in potentially
erroneous Excess Social Security Tax Credits as a result of these weaknesses.10




6
  The maximum wage amount subject to Social Security tax withholding in Tax Year 2011 was $106,800, and the
withholding rate was 4.2 percent.
7
  We reviewed a statistically valid sample because not all information needed for our analysis was captured on the
IRS’s Form W-2 file. Specifically, box 14 (which details the withholding associated with the Railroad Retirement
Tax Act tax) and box 12 (which details the amount of withholding related to tip income) are not included in the file.
This information is available on an individual’s tax account.
8
  See Appendix IV for details of our projection.
9
  See Appendix IV for details of our projection.
10
   See Appendix IV. The five-year forecast is based on multiplying the base year by five and assumes, among other
considerations, that economic conditions and tax laws do not change.
                                                                                                             Page 4
                      Processes Are Needed to More Effectively Address
                Potentially Erroneous Excess Social Security Tax Credit Claims



Improvements are needed to ensure the accuracy of claims for the Excess Social
Security Tax Credit at the time tax returns are processed
The IRS has developed processes in an effort to identify questionable Excess Social Security Tax
Credit claims at the time tax returns are processed. For example, for electronically filed (e-filed)
tax returns with an Excess Social Security Tax Credit claim, the IRS verifies that information
from more than one employer is included with the tax return. For paper-filed tax returns with an
Excess Social Security Tax Credit claim, the IRS compares the amount claimed on the tax return
to the amount of Social Security tax withheld and reported on Forms W-2 attached to the tax
return. If additional information is needed to verify the amount of Excess Social Security Tax
Credit claimed, the IRS will correspond with the taxpayer.
However, our review identified that improvements are needed to these processes to better
identify questionable claims at the time tax returns are processed. For example, of the 231 tax
returns we identified with questionable Excess Social Security Tax Credit claims, 40 (17 percent)
could have been identified as questionable at the time the tax returns were processed. The
credits claimed on these 40 tax returns totaled $23,235 and were not supported by information
included with or on the tax returns. Our analysis of why these 40 tax returns were not identified
as potentially questionable shows:
      24 paper-filed tax returns with Excess Social Security Tax Credit claims totaling $17,176
       were not identified because IRS employees did not follow verification procedures. For
       example, IRS employees did not verify that the total wages reported on the tax returns
       were below the maximum amount at which an employee would exceed the Social
       Security tax withholding limit. The maximum wage amount subject to Social Security
       tax withholding in Tax Year 2011 was $106,800. As long as a taxpayer’s total wages are
       at or below $106,800, their Social Security tax withholding will not exceed the annual
       withholding limit. The IRS’s procedures for verifying Excess Social Security Tax Credit
       claims on paper-filed tax returns require tax examiners to ensure that the taxpayer has
       more than one employer, the wages and withholding reported are reasonable (by
       comparing the withholding reported to the total wages reported), and the Social Security
       tax withholding exceeds the annual maximum withholding amount.
      9 e-filed tax returns with Excess Social Security Tax Credit claims totaling $2,921 were
       not identified ********************2**********************************
       ********************************2***************************************
       *******************************2**************. For example, the amount of
       Social Security tax withholding reported on the tax return exceeds the amount reported as
       Social Security wages.
      6 e-filed tax returns with Excess Social Security Tax Credit claims totaling $2,806 were
       not identified **********************2**********************************
       ******************************2*****************************, with this

                                                                                             Page 5
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims



         employer being the taxpayer’s sole employer. The Code of Federal Regulations states
         that any individual with more than the correct amount of Social Security tax withheld by
         one employer must be repaid by that employer.11
        ***********************************1************************************
         ***********************************1************************************
         ***********************************1************************************
         *********1********.

Apart from reviewing a small number of tax returns, the IRS generally has no
processes or procedures to address questionable Excess Social Security Tax
Credit claims
The remaining 191 (83 percent) of the 231 tax returns we identified with questionable Excess
Social Security Tax Credit claims involved discrepancies between the Excess Social Security
Tax Credit claimed by the taxpayer and the Social Security income and/or withholding reported
on Forms W-2 by employers. For example, on:12
        80 tax returns with Excess Social Security Tax Credit claims totaling $74,217, the
         Forms W-2 provided by the taxpayer showed that the taxpayer had more than one
         employer and the total Social Security tax withholding was in excess of the maximum
         annual limit. However, Forms W-2 submitted to the IRS by the employers showed that
         part of the reported income and withholding was earned by the taxpayer’s spouse. As a
         result, neither the taxpayer nor the spouse had excess Social Security tax withholding.
        67 tax returns with Excess Social Security Tax Credit claims totaling $51,582, we were
         unable to confirm the amount of credit being claimed because no corresponding
         Form(s) W-2 has been reported to the IRS for these taxpayers by the employer(s) listed
         on these tax returns.
        47 tax returns with Excess Social Security Tax Credit claims totaling $29,400, the IRS
         has corresponding Forms W-2 for the taxpayer; however, the amount of Social Security
         tax withholding reported to the IRS by the employer does not match the Social Security
         tax withholding amounts reported by the taxpayer on these tax returns.
Subsequent to the processing of tax returns, three times each year, the IRS performs a match to
compare Excess Social Security Tax Credit amounts claimed to Social Security income and
withholding information reported by employers. This match is performed to identify those tax
returns with a discrepancy between the Social Security tax withholding reported by taxpayers
and the withholding reported by employers. For example, the IRS reported that it adjusted the

11
  26 C.F.R. § 601.401(c)(2)(i).
12
  Three of the 191 tax returns contained more than one error. As a result, the number of tax returns shown in the
bullets totals more than 191 returns.
                                                                                                            Page 6
                           Processes Are Needed to More Effectively Address
                     Potentially Erroneous Excess Social Security Tax Credit Claims



Excess Social Security Tax Credit on 10,595 (84 percent) of the 12,565 Tax Year 2010 tax
returns13 it analyzed as part of its post-processing matching program, resulting in the assessment
of approximately $31 million in additional tax and the issuance of $431,308 in additional tax
refunds.
However, despite this reconciliation identifying taxpayers erroneously claiming the Excess
Social Security Credit, the IRS only reviews a small portion of the questionable claims it
identifies. *****************************2**************************************
**************************************2***************************************
**************************************2***************************. The IRS
stated that because of resource limitations, it is unable to review all of the tax returns it identifies
with a discrepancy between the Social Security tax withholding reported by taxpayers and the
withholding reported by employers.
Apart from reviewing a small number of tax returns, the IRS generally has no other processes or
procedures to address these questionable Excess Social Security Tax Credit claims. The use of
soft notices could significantly expand the IRS’s ability to address the discrepancies between the
Social Security tax withholding reported by taxpayers and the withholding reported by
employers. For example, soft notices could alert individuals to potential errors related to their
Excess Social Security Tax Credit claim. The notices commonly provide individuals with
information specific to the eligibility or reporting requirements related to the potential error and
suggest the filing of a Form 1040X, Amended U.S. Individual Income Tax Return, if an error has
occurred.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that IRS employees follow established procedures when
verifying taxpayers’ claims for the Excess Social Security Tax Credit at the time tax returns are
processed.
           Management’s Response: The IRS agreed with this recommendation. IRS
           management stated that in preparation for the 2015 Filing Season, the IRS is taking steps
           to ensure that employees are trained and aware of procedures to be followed when
           processing returns claiming the Excess Social Security Tax Credit. In the interim, the
           IRS plans to inform and remind employees of procedures through unit meetings, Alert
           Messages issued through the Servicewide Electronic Research Program, and Interim
           Procedural Updates.



13
     Tax Year 2010 was the most current information available from the IRS.
                                                                                                Page 7
                     Processes Are Needed to More Effectively Address
               Potentially Erroneous Excess Social Security Tax Credit Claims



Recommendation 2: **********************2******************************
******************************************2***********************************
***********************************2******************************************
********2*********.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that business rules are being developed that will **********2***********
       *****************************2******************************************
       *****************************2******************************************
       *****2******
Recommendation 3: *****************2**************************************
*************************************2****************************************
********************2*****************.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that business rules being developed to ***********2****************
       *******************************2****************************************
       *******************************2************************.
Recommendation 4: Develop a strategy that adequately addresses tax returns identified with
a discrepancy between the Social Security tax withholding reported by taxpayers and the
withholding reported by employers. This strategy should include determining the net benefit of
using soft notices as an alternative approach to address these discrepancies.
       Management’s Response: The IRS did not agree with this recommendation. The
       IRS stated that it has a process in place to identify discrepancies between the amounts of
       Social Security tax withholding reported by taxpayers and employers. However, the
       IRS’s ability to address all discrepancies identified is constrained by limited resources,
       requiring a compliance strategy that selects the most egregious erroneous claims for
       review. The IRS agreed that the use of soft notices would increase its ability to address
       identified discrepancies. However, it stated that soft notices would also strain limited
       resources ****************************2********************************
       *********************************2***********************************,
       *********************************2*********************************
       **************************2******************** and, therefore, the IRS does
       not intend to take action on this recommendation.
       In addition, the IRS agreed that the 67 tax returns we identified could not be reconciled to
       corresponding Form W-2 data reported to the IRS by employers. However, based upon
       additional research the IRS performed on these accounts, it believes most of these claims
       are likely to be valid. Therefore, the IRS did not agree with the full amount of the
       outcome measure related to correcting weaknesses in its verification processes.


                                                                                            Page 8
              Processes Are Needed to More Effectively Address
        Potentially Erroneous Excess Social Security Tax Credit Claims



Office of Audit Comment: We agree that the IRS must ensure that its limited
resources are used effectively and efficiently to address taxpayer noncompliance.
However, the IRS has not provided us with data to support its claim that using soft
notices would result in an ineffective use of its limited resources.
Regarding the 67 credits claimed that could not be reconciled to corresponding Form
W-2 data, we agree with the IRS’s assumptions and conclusions based on its additional
research and have adjusted our outcome measure accordingly.




                                                                                      Page 9
                        Processes Are Needed to More Effectively Address
                  Potentially Erroneous Excess Social Security Tax Credit Claims



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of the IRS’s processes to ensure that
taxpayers are accurately claiming excess Social Security tax withholding credits. To accomplish
our objective, we:
I.      Evaluated the effectiveness of IRS controls to verify the accuracy of Excess Social
        Security Tax Credit claims.
        A. Identified IRS processes and procedures to verify taxpayers’ claims at the time tax
           returns are processed and subsequent to the completion of tax return processing.
        B. We used data from the Treasury Inspector General for Tax Administration (TIGTA)
           Data Center Warehouse1 to identify and match more than 1.3 million Tax Year2 2011
           returns for which the IRS allowed an Excess Social Security Tax Credit claim to the
           Forms W-2, Wage and Tax Statement, filed by employers for Tax Year 2011. We
           identified 87,319 tax returns with Excess Social Security Tax Credit claims totaling
           more than $101 million for which it does not appear the credit is supported by the
           Social Security tax withholding reported by employers.3 We assessed the reliability
           of this data by comparing 100 records to the Integrated Data Retrieval System4 and
           determined that the data were sufficiently reliable for the purposes of this report.
             1. Reviewed a statistically valid sample of 322 of the 87,319 tax returns to determine
                if Forms W-2 available to the IRS at the time the tax return was processed support
                the taxpayer’s claims for the Excess Social Security Tax Credit. We compared
                the Excess Social Security Tax Credit claimed to information contained in the
                IRS’s Information Return Master File5 and to information contained on
                Forms W-2 submitted by the taxpayers with their tax return.




1
  Centralized storage and administration of files (which provides access to IRS data).
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
3
  The maximum wage amount subject to Social Security tax withholding in Tax Year 2011 was $106,800, and the
withholding rate was 4.2 percent.
4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
5
  An IRS database that contains third-party information documents for taxpayers, such as Forms W-2 and
Forms SSA-1099, Social Security Benefit Statement.
                                                                                                        Page 10
                      Processes Are Needed to More Effectively Address
                Potentially Erroneous Excess Social Security Tax Credit Claims



           2. Evaluated the 231 tax returns we identified for which the Excess Social Security
              Tax Credit claim was not supported to determine why the IRS allowed the credit.
              We quantified the effect of the control weaknesses we identified.
Sampling Criteria
We selected and reviewed a statistically valid sample of 322 of the 87,319 tax returns we
identified for which it appears the Excess Social Security Tax Credit claim was not supported by
the Social Security tax withholding reported by employers. We reviewed a statistically valid
sample because not all information needed to evaluate the accuracy of the Excess Social Security
Tax Credit claim is captured on the IRS’s Form W-2 file. Specifically for Form W-2, box 14
(which details the withholding associated with Railroad Retirement Tax) and box 12 (which
details the amount of withholding related to tip income) are not included in the file. This
information is available on an individual’s tax account. Our sample was selected using
two stratum based on the method taxpayers used to file their tax return – paper tax returns and
e-filed tax returns. We selected our sample using a 95 percent confidence level, a ± 5 percent
precision, and a 30 percent estimated error rate. Our sampling methodology was developed by
TIGTA’s contract statistician.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies, procedures,
and practices related to the processing of claims for excess Social Security tax withheld. We
evaluated these controls through interviews with IRS management, analysis of IRS policies and
procedures, and reviews of Excess Social Security Tax Credits claimed by taxpayers.




                                                                                          Page 11
                     Processes Are Needed to More Effectively Address
               Potentially Erroneous Excess Social Security Tax Credit Claims



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Accounts Services)
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
Douglas C. Barneck, Lead Auditor
Karen C. Fulte, Senior Auditor
Laura P. Haws, Senior Auditor
Linna K. Hung, Senior Auditor
Lance Welling, Senior Auditor




                                                                                          Page 12
                    Processes Are Needed to More Effectively Address
              Potentially Erroneous Excess Social Security Tax Credit Claims



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Accounts Services SE:W:CAS
Director, Submission Processing SE:W:CAS:SP
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
National Taxpayer Advocate TA
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 13
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims



                                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
        Cost Savings, Funds Put to Better Use – Potential; $12,907,712 in Excess Social Security
         Tax Credits; $64,538,5601 forecast over five years (see page 4).

Methodology Used to Measure the Reported Benefit:
Using the IRS’s Individual Return Transaction File,2 we identified 1.3 million Tax Year3 2011
individual tax returns for which the IRS allowed an Excess Social Security Tax Credit claim.
We matched the primary and secondary taxpayers shown on the 1.3 million tax returns to the
IRS’s file of employer-provided Forms W-2, Wage and Tax Statement, maintained on the
TIGTA Data Center Warehouse.4 Our analysis identified 87,319 tax returns with Excess Social
Security Tax Credit claims totaling more than $101 million for which it appears the employers’
Forms W-2 did not support the credit. However, not all of the information required to fully
assess the accuracy of an Excess Social Security Tax Credit claim is captured on the IRS’s
Form W-2 file. Specifically, Form W-2 box 14 (which details the withholding associated with
Railroad Retirement Tax) and box 12 (which details the amount of withholding related to tip
income) are not included in the file. As a result, we used statistical sampling to estimate the
impact of the missing data on our assessment of the accuracy of Excess Social Security Tax
Credit Claims.
We selected a statistically valid sample of 322 tax returns from the 87,319 returns we identified
in our data analysis. Our sample was selected using a 95 percent confidence level, a 30 percent
estimated error rate, and a ± 5 percent precision. In addition, we stratified the selection of our
sample based on the method used to file the tax return – 276 e-filed returns and 46 paper returns.
Our sampling methodology was developed by TIGTA’s contract statistician.

1
  The five-year forecast of potential cost savings (funds put to better use) is based on multiplying the base year by
five and assumes, among other considerations, that economic conditions and tax laws do not change.
2
  Contains data transcribed from initial input of the original individual tax returns during returns processing.
3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
4
  A TIGTA Office of Information Technology function that obtains and stores numerous IRS data files and makes
them available to auditors and investigators.
                                                                                                              Page 14
                        Processes Are Needed to More Effectively Address
                  Potentially Erroneous Excess Social Security Tax Credit Claims



We then compared the Excess Social Security Tax Credit amount allowed on each tax return in
our statistical sample to the associated employer Forms W-2 shown on the IRS’s Information
Return Master File.5 We found that 231 (72 percent) of the 322 tax returns had Excess Social
Security Tax Credit claims totaling $177,854 that were not supported by information reported on
employers’ Forms W-2. The IRS subsequently reviewed and disallowed the Excess Social
Security Tax Credit claim on 31 of the 231 tax returns as a result of its income matching
program. The IRS also reviewed an additional 30 tax returns as a result of its income matching
program but did not adjust the Excess Social Security Tax Credit. For purposes of this outcome
measure, we did not consider the 61 returns as exceptions and excluded them from the totals.
We reduced our outcomes based on the IRS’s additional research related to the 67 credits
claimed that could not be reconciled to corresponding Form W 2 data. Because 10 of the 67
cases had already been eliminated from our outcome, we eliminated the additional 57 cases. As
such, we projected the outcome on 113 exception cases.
To project the number of tax returns for which taxpayers received questionable Excess Social
Security Tax Credits in Tax Year 2011, we:
       Calculated the ratio of each of the sample strata (e-filed and paper) to the population of
        87,319 tax returns.
        74,902 e-filed returns/87,319 tax returns = 85.78 percent
        12,417 paper returns/87,319 tax returns = 14.22 percent
       Calculated the error rate for each of the sample strata.
        87 e-filed exceptions/276 e-filed returns = 31.52 percent
        26 paper exceptions/46 paper returns = 56.52 percent
       Calculated the error rate for the statistical sample of 322 tax returns.
        (e-filed ratio x e-filed error rate) + (paper ratio x paper error rate) = sample error rate
        (85.78 percent x 31.52 percent) + (14.22 percent x 56.52 percent) = 35.08 percent
       Calculated the projected number of tax returns with questionable Excess Social Security
        Tax Credit claims.
        87,319 x 35.08 percent = 30,629 tax returns6



5
  An IRS database that contains third-party information documents for taxpayers, such as Forms W-2 and
Forms SSA-1099, Social Security Benefit Statement.
6
  The total number of tax returns was calculated using actual numbers rather than the rounded numbers presented
here.
                                                                                                         Page 15
                           Processes Are Needed to More Effectively Address
                     Potentially Erroneous Excess Social Security Tax Credit Claims



To project the amount of questionable Excess Social Security Tax Credit claims taxpayers
received in Tax Year 2011, we:
          Calculated the ratio of each of the sample strata (e-filed and paper) to the population of
           87,319 tax returns.
           74,902 e-filed returns /87,319 tax returns = 85.78 percent
           12,417 paper returns/87,319 tax returns = 14.22 percent
          Calculated the average error dollars rate for each of the sample strata.
           $38,432/276 e-filed returns = $139
           $18,288/46 paper returns = $398
          Calculated the average error dollars for the statistical sample of 322 tax returns.
           (e-filed ratio x average e-filed error dollars) + (paper ratio x average paper error dollars)
           = sample average error dollars
           (85.78 percent x $139) + (14.22 percent x $398) = $176
          Calculated the estimated amount of potentially erroneous Excess Social Security Tax
           Credit claims taxpayers received.
           87,319 x $176 = $15,366,3247
Based on our results, we estimate that the IRS may have paid $15,366,324 in questionable
Excess Social Security Tax Credit claims on 30,629 Tax Year 2011 returns as a result of
weaknesses in its verification processes. We are 95 percent confident that our estimate of the
number of tax returns for which potentially erroneous credits were allowed falls between 26,148
and 35,109. We are 95 percent confident that our estimate of the amount of potentially
erroneous credits allowed falls between $10,320,886 and $20,411,761. Our projections were
calculated by TIGTA’s contract statistician.8
We further revised our projection to account for the portions of the projected potentially
erroneous credits that are likely to be valid and likely to be adjusted (disallowed as erroneous)
based on the results of the IRS’s information matching program. According to the IRS, it
adjusted the credit on 10,595 (84 percent) of the 12,565 Tax Year 2010 tax returns it analyzed as
part of its post-processing matching program. This indicates that 84 percent of the credits
claimed were in fact erroneous (and the other 16 percent were found to be valid).




7
    The total dollar amount was calculated using actual numbers rather than the rounded numbers presented here.
8
    These point estimate projections are based on two-sided 95 percent confidence intervals.
                                                                                                           Page 16
                         Processes Are Needed to More Effectively Address
                   Potentially Erroneous Excess Social Security Tax Credit Claims



To compensate for the 16 percent of claims that are likely to be found valid, we estimate that
84 percent of our projected potentially erroneous credits are likely to be found to be erroneous.
As a result, we reduced our projected potentially erroneous credits by 16 percent and claimed
only the 84 percent likely to be erroneous. Therefore, we estimate that the IRS may have paid
$12,907,712 in questionable Excess Social Security Tax Credit claims on the 25,728 erroneous
claims, as calculated below.
        30,629 x 84 percent = 25,728
        $15,366,324 x 84 percent = $12,907,712
The actual amount of revenue the IRS will protect is dependent on the actions the IRS takes to
address our audit findings and will not be known until actions are implemented.
We forecast that the IRS could pay $64,538,5609 in potentially erroneous Excess Social Security
Tax Credit claims over the next five years as a result of weaknesses in its verification processes.




9
  The five-year forecast of potential cost savings (funds put to better use) is based on multiplying the base year by
five and assumes, among other considerations, that economic conditions and tax laws do not change.
                                                                                                              Page 17
         Processes Are Needed to More Effectively Address
   Potentially Erroneous Excess Social Security Tax Credit Claims



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 18
      Processes Are Needed to More Effectively Address
Potentially Erroneous Excess Social Security Tax Credit Claims




                                                         Page 19
                   Processes Are Needed to More Effectively Address
             Potentially Erroneous Excess Social Security Tax Credit Claims




                                                                                                              Attachment

Recommendations

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 1
Ensure that IRS employees follow established procedures when verifying taxpayers' claims
for the Excess Social Security Tax Credit at the time tax returns are processed.

CORRECTIVE ACTION
In preparation for the 2015 Filing Season, we are taking steps to ensure employees are
trained and aware of procedures to be followed when processing returns claiming the Excess
Social Security Tax Credit. In the interim, employees are informed and reminded of procedures
through unit meetings, Alert Messages issued through the Servicewide Electronic Research Program,
and Interim Procedural Updates.

IMPLEMENTATION DATE
February 15, 2015

RESPONSIBLE OFFICIAL
Director, Submission Processing, Customer Account Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 2
**************************************2************************************************************
**************************************2***************************************************************
**************************************2***************************************************************
**************************************2*******************.

CORRECTIVE ACTION
Business rules are being developed that will **************2******************************************
** ************************************2*******************************************************************
************************************2********************************************.

IMPLEMENTATION DATE
February 15, 2016

RESPONSIBLE OFFICIAL
Director, Submission Processing, Customer Account Services, Wage and Investment
Division




                                                                                                              Page 20
                   Processes Are Needed to More Effectively Address
             Potentially Erroneous Excess Social Security Tax Credit Claims




CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 3
**************************************2*************************************************************
**************************************2**********************************.

CORRECTIVE ACTION
Business rules being developed to **********************2**************************************
**************************************2****************************************.

IMPLEMENTATION DATE
February 15, 2016

RESPONSIBLE OFFICIAL
Director, Submission Processing, Customer Account Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 4
Develop a strategy that adequately addresses tax returns identified with a discrepancy
between the Social Security tax withholding reported by taxpayers and the withholding
reported by employers. This strategy should include determining the net benefit of using soft
notices as an alternative approach to address these discrepancies.

CORRECTIVE ACTION
As noted in the report, the IRS has a process in place to identify discrepancies between
the amounts of Social Security tax withholding reported by taxpayers and employers. Our
ability to address all discrepancies identified is constrained by limited resources, requiring a
compliance strategy that selects the most egregious erroneous claims for review. The use of
soft notices would increase our ability to address identified discrepancies; however, they also
 strain limited resources *********************2****************************************
************************************2********************************************
**************************2*******************************. Consequently, we do not intend to take
action on this recommendation.




                                                                                                       Page 21
      Processes Are Needed to More Effectively Address
Potentially Erroneous Excess Social Security Tax Credit Claims




                                                         Page 22
